NO.

IN THE
SUPREME COURT OF THE UNITED STATES

DEVERICK SCOTT # 131042- PETITIONER
VS.
DANNY BURL, ET AL - RESPONDENT(S)

PROOF OF SERVICE
I, Deverick Scott, do swear or declare that on this date,
, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each
party to the above proceeding or that Party’s Counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

UNITED STATES SUPREME COURT
SAMMIE P. STRANGE, JR. ARKANSAS ATTORNEY GENERAL
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

,20

(Signature)

29

/H/Mcrk if feMM
x As**/*

of
Ate}
Ji j}- wrtJA* jyA/7- ***

#J xr/*fKCfot
</ /Ttfs/Li/l
)

/,

V0J

/t, Ja ^

2

